OIG Audit Report GR-60-07-001

Office of Community Oriented Policing Services Grants Awarded to
 the State of Utah Department of Public Safety, Salt Lake City, Utah

Audit Report GR-60-07-001


February 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Office of Community Oriented Policing Services (COPS Office) Technology Grant Nos. 1998-CK-WX-0063, 1999-CK-WX-0023, 2000-CK-WX-0037, 2001-CK-WX-0005, 2001-CK-WX-0120, 2002-CK-WX-0150, and 2002-CK-WX-0399 awarded by the COPS Office to the State of Utah, Department of Public Safety (Utah DPS). The purpose of the COPS Technology Grant Program is to provide funding for the continued development of technologies and automated systems that assist state, local, and tribal law enforcement agencies in preventing, responding to, and investigating crime. The COPS Technology Grant Program provides funding to assist law enforcement agencies in purchasing technologies to advance communications interoperability, information sharing, crime analysis, intelligence gathering, and crime prevention in their communities.
 We tested Utah DPS’s accounting records to determine if costs claimed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the COPS Technology grants. At the time of our audit Utah DPS had been reimbursed $19,050,244, which was the total award amount for the grants audited.
 Our audit revealed that the Utah DPS claimed and was reimbursed for unsupported and unallowable costs. In addition, we found that the Utah DPS did not submit all financial status reports (FSRs) or progress reports as required.
 Based on the deficiencies listed below, we identified dollar-related findings totaling $59,919, or less than 1 percent of the $19,050,244 total grant funds awarded.1  Specifically, we found that the Utah DPS: 

requested and received reimbursement of $48,759 for costs charged to the grants that were not allowable in accordance with the approved grant budgets;
 requested and received reimbursement of $11,160 in unsupported costs charged to the grants for three in-car cameras that could not be physically verified; 
 failed to record seven in-car cameras purchased with grant funds on their inventory listing; and 
did not submit all FSRs and progress reports as required, and the FSRs were not always accurate.

These items are discussed in detail in the Findings and Recommendations section of the report.



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.








Return to OIG Home Page